TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Customer Account Data Engine Release 4
                    Includes Most Planned Capabilities and
                     Security Requirements for Processing
                      Individual Tax Account Information



                                         August 28, 2009

                              Reference Number: 2009-20-100




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                August 28, 2009


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION
                CHIEF TECHNOLOGY OFFICER


 FROM:                    (for) Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Customer Account Data Engine Release 4
                                 Includes Most Planned Capabilities and Security Requirements for
                                 Processing Individual Tax Account Information (Audit # 200920020)

 This report presents the results of our review of the Customer Account Data Engine1 (CADE)
 Release 4 capabilities. The overall objectives of this review were to assess the accuracy and
 completeness of the CADE Release 4 capabilities to enhance the processing of tax return
 information, determine whether this release provides the intended benefits to the Internal
 Revenue Service (IRS) and taxpayers, and determine whether the IRS has taken effective actions
 to correct security vulnerabilities on prior CADE system releases. This review was part of the
 Treasury Inspector General for Tax Administration Fiscal Year 2009 Annual Audit Plan
 coverage under the major management challenge of Modernization of the IRS.

 Impact on the Taxpayer
 The IRS has developed a strategy for a phased replacement of its computer systems to better
 support today’s tax laws, policies, and taxpayer needs. The CADE is a major component of the
 IRS modernization program. The modernized CADE database allows the IRS to update taxpayer
 accounts, support account settlement and maintenance, and process refunds on a daily basis,
 which will contribute to improved service to taxpayers. CADE Release 4 is operating effectively
 to help the IRS provide these improved services to taxpayers. However, there are security
 concerns that have not been adequately addressed.



 1
     See Appendix VI for a glossary of terms.
                           Customer Account Data Engine Release 4
                Includes Most Planned Capabilities and Security Requirements
                      for Processing Individual Tax Account Information




Synopsis
The IRS completed deployment of CADE Release 4.1 in July 2008 and CADE Release 4.2 in
January 2009. From January through May 2009, the CADE had processed almost 40 million tax
returns (approximately 30 percent of all individual tax returns filed) and generated almost
$58 billion in refunds.
In addition to new tax law changes, CADE Release 4 added processing for tax returns with a
surviving spouse filing status and tax returns for decedent taxpayers. This release also allows
taxpayers to make changes to their last name and accepts the Application for Automatic
Extension of Time To File U.S. Individual Income Tax Return (Form 4868) filed by taxpayers.
Further, this release generates notices to taxpayers eligible to receive the Additional Child Tax
Credit or informs taxpayers that their refunds will be mailed to them versus electronically
deposited.
Our review of CADE Release 4 processing found that some planned capabilities were not
completely implemented. We identified problems with processing tax returns for decedent
taxpayers and with the Treasury Offset Program. When these conditions were recognized by the
IRS, it implemented steps to correct these processing problems.
Several planned capabilities for CADE Release 4 were deferred because of other programming
priorities. These capabilities included: 1) maintaining accounts in the CADE after processing
the filing of prior year tax returns, 2) processing electronic revenue receipts submitted with
original tax returns, 3) establishing an account on the CADE to accept a taxpayer’s estimated tax
payment (estimated tax declaration), 4) Criminal Investigation Division refund holds, and
5) credit elections for the current tax year returns. The IRS decided to defer implementation of
processing estimated tax declarations, Criminal Investigation Division refund holds, and credit
elections until the development of CADE Release 5.2. The IRS also informed us that it is
reconsidering the plans and requirements for future CADE releases, leaving uncertain the
implementation of the processing of prior year tax returns and electronic revenue receipts.
Our review also identified tax returns processed by CADE Release 4 with incomplete
information. Initially, the IRS did not process these tax returns and requested that the taxpayers
respond with complete information. When the taxpayers responded to the IRS, the record of the
correspondence received date was not shown on the CADE. However, the Modernized Database
captured the correspondence received date, which showed the updated tax return filing date.
Analysis of the updates showed that returns were filed in a timely manner and any interest
payments on tax refunds due to processing delays were properly processed. However, because
the CADE account information did not capture and display the taxpayers’ correspondence
received date, there is a potential that subsequent activity by the IRS may result in inappropriate
account actions or adjustments.

                                                                                                    2
                               Customer Account Data Engine Release 4
                    Includes Most Planned Capabilities and Security Requirements
                          for Processing Individual Tax Account Information


Subsequent to our review, the IRS informed us that it took actions to resolve the issue of the
missing correspondence received date by performing program adjustments that were deployed
with CADE Release 4.2 on January 19, 2009. The IRS is also in the process of correcting
accounts previously processed with Release 4.1.
The IRS has taken steps to address all 16 CADE system security vulnerabilities presented in our
report, entitled The Internal Revenue Service Deployed Two of Its Most Important Modernized
Systems With Known Security Vulnerabilities,2 and has fully resolved 10 of them. The remaining
six security vulnerabilities cannot be resolved until actions are completed to ensure controls are
effectively in place or have been approved as deviations to IRS policy. Further, we found that
the IRS prematurely reported resolution of six vulnerabilities in the Plan of Action and
Milestones listing before effective corrective actions were taken. Three of these six
vulnerabilities were not fully resolved as of the date of our review.

Recommendation
The Chief Technology Officer should direct the Cybersecurity organization to take actions that
ensure the CADE and mainframe computer system owners appropriately enter and track system
vulnerabilities on control systems, including the Plan of Action and Milestones listing and Item
Tracking Reporting and Control System, and verify corrective actions are fully implemented
before they are considered and reported as resolved.

Response
The IRS agreed with our recommendation. The Cybersecurity organization will continue to
improve the process to ensure that system owners comply with IRS policy to enter and track all
system vulnerabilities in IRS control systems. Management’s complete response to the draft
report is included as Appendix VII.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Acting Assistant Inspector General for Audit (Security and Information
Technology Services), at (202) 622-8510.




2
    Reference Number 2008-20-163, dated September 24, 2008.
                                                                                                   3
                                  Customer Account Data Engine Release 4
                       Includes Most Planned Capabilities and Security Requirements
                             for Processing Individual Tax Account Information




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Customer Account Data Engine Release 4 Accurately Processes
          and Records Tax Return and Tax Account Information, Although
          Some Planned Capabilities Were Not Implemented ................................ Page 3
          Further Work Is Necessary to Alleviate Known Customer Account
          Data Engine System Security Vulnerabilities...............................................Page 7
                    Recommendation 1:..........................................................Page 9


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 15
          Appendix III – Report Distribution List .......................................................Page 16
          Appendix IV – Customer Account Data Engine Release Capabilities .........Page 17
          Appendix V – Customer Account Data Engine System Security
          Vulnerabilities and Status of Resolution.......................................................Page 22
          Appendix VI – Glossary of Terms................................................................Page 25
          Appendix VII – Management’s Response to the Draft Report.....................Page 27
                  Customer Account Data Engine Release 4
       Includes Most Planned Capabilities and Security Requirements
             for Processing Individual Tax Account Information




                      Abbreviations

CADE            Customer Account Data Engine
IRS             Internal Revenue Service
                                 Customer Account Data Engine Release 4
                      Includes Most Planned Capabilities and Security Requirements
                            for Processing Individual Tax Account Information




                                               Background

The Customer Account Data Engine1 (CADE) is a major
component of the Internal Revenue Service’s (IRS)               The CADE is a critical building
modernization program. It consists of current and planned      block in the IRS modernization
                                                                 program that will enable the
databases and related applications that work with the IRS        development of subsequent
Master File system.                                            modernized systems to improve
                                                              customer service and compliance.
Tax returns, both paper and electronic, are received by the
IRS at various Submission Processing sites across the
country. At these sites, the tax return information is input
to the IRS return processing computer system, which validates certain taxpayer identifying
information and checks the tax returns for mathematical errors. After the tax return information
has been validated and errors have been corrected, the sites send the information to the IRS
Computing Centers for posting to the taxpayers’ accounts. In the past, this account information
was posted to the Master File system.
The age and complexity of the Master File system cause inaccuracies and delays in providing
service to taxpayers. Currently, updates to taxpayers’ account information on the Master File,
such as posting return information and payments, occur on a weekly basis and some updates
require multiple weeks to complete. Because current data are not available to IRS employees,
taxpayers requesting help with their accounts may be given outdated information. In contrast,
the CADE posts information to taxpayers’ accounts on a daily rather than a weekly basis.
Taxpayers whose tax account information is posted to the CADE receive refunds faster, and IRS
employees are able to provide improved service to taxpayers because the employees have
up-to-date, accurate account information available.
The IRS has developed a strategy for a phased replacement of its computer systems to better
support today’s tax laws, policies, and taxpayer needs. The CADE is being implemented in a
series of releases over several years. The simplest taxpayer accounts were moved to the CADE
first, and each successive release adds a more complex segment of taxpayer accounts. The first
CADE release began posting the simplest individual tax returns, the Income Tax Return for
Single and Joint Filers With No Dependents (Form 1040EZ), in July 2004. Subsequent releases
have added new capabilities and tax forms. The subject of this review, CADE Release 4, began
posting returns in July 2008 and contained significant additions over the prior releases.
Like all Federal Government agencies, the IRS is required to protect its computer systems by
implementing appropriate security controls to ensure the confidentiality, integrity, and


1
    See Appendix VI for a glossary of terms.
                                                                                          Page 1
                              Customer Account Data Engine Release 4
                   Includes Most Planned Capabilities and Security Requirements
                         for Processing Individual Tax Account Information



availability of sensitive data, as recommended in National Institute of Standards and Technology
Special Publication 800-53.2 In addition, the IRS is specifically required by Federal law to keep
taxpayer data confidential and to prevent unauthorized disclosure or browsing of taxpayer
records. Section 6103 of the Internal Revenue Code3 prohibits the disclosure of tax returns and
tax return information and requires that the storage of such information be secure and the access
restricted to only those persons whose duties and responsibilities require access.
In September 2008, we reported4 that the IRS continued to deploy CADE releases even though
known security weaknesses existed in the controls over system access, monitoring of system
access, disaster recovery, and sensitive data protection. As a result, the IRS was jeopardizing the
confidentiality, integrity, and availability of an increasing volume of tax information for millions
of taxpayers as CADE releases were put into operation.
This review was performed in the Wage and Investment Division CADE Project Office and the
Cybersecurity organization in New Carrollton, Maryland, during the period November 2008
through May 2009. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives. This review was
part of the Treasury Inspector General for Tax Administration Fiscal Year 2009 Annual Audit
Plan coverage under the major management challenge of Modernization of the IRS. Detailed
information on our audit objectives, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




2
  Recommended Security Controls for Federal Information Systems, Revision 1, published December 2006.
3
  26 U.S.C. Section (§) 6103.
4
  The Internal Revenue Service Deployed Two of Its Most Important Modernized Systems With Known Security
Vulnerabilities (Reference Number 2008-20-163, dated September 24, 2008).
                                                                                                     Page 2
                            Customer Account Data Engine Release 4
                 Includes Most Planned Capabilities and Security Requirements
                       for Processing Individual Tax Account Information




                                 Results of Review

Customer Account Data Engine Release 4 Accurately Processes and
Records Tax Return and Tax Account Information, Although Some
Planned Capabilities Were Not Implemented
The IRS completed deployment of CADE Release 4.1 in
July 2008 and CADE Release 4.2 in January 2009. From
January through May 2009, the CADE had processed                 The CADE processed almost
                                                                   40 million tax returns and
almost 40 million tax returns (approximately                           generated almost
30 percent of all individual tax returns filed) and generated     $58 billion in refunds from
almost $58 billion in refunds. This is a significant              January through May 2009.
increase over the 30 million tax returns processed in
Calendar Year 2008.
In addition to new tax law changes, CADE Release 4 added processing for tax returns with a
surviving spouse filing status and tax returns for decedent taxpayers. Further, this release allows
taxpayers to make changes to their last name and accepts the Application for Automatic
Extension of Time To File U.S. Individual Income Tax Return (Form 4868) filed by taxpayers.
This release also generates notices to taxpayers eligible to receive the Additional Child Tax
Credit or informs taxpayers that their refunds will be mailed to them versus electronically
deposited. Appendix IV provides an overview of the capabilities delivered in each of the CADE
releases.

The IRS took appropriate actions to correct CADE processing problems with
CADE Release 4.1
The major capabilities added to CADE Release 4.1 included processing tax returns with a
surviving spouse filing status with dependent child and tax returns of decedent taxpayers.
Further, Release 4.1 generates the Additional Child Tax Credit Notice to eligible taxpayers who
did not claim the full amount of the Child Tax Credit and generates the Electronic Fund Transfer
Notice notifying taxpayers that their electronic refund request cannot be honored. This release
also accepts the Treasury Offset Program transactions and processes changes to taxpayer
addresses.
We sampled transactions to determine whether the release properly implemented these
capabilities for tax return processing and found that these capabilities were generally
implemented adequately. However, we identified the following Release 4.1 processing problems
and presented them to CADE project management for resolution.

                                                                                            Page 3
                                 Customer Account Data Engine Release 4
                      Includes Most Planned Capabilities and Security Requirements
                            for Processing Individual Tax Account Information



       •   Tax Returns of Decedent Taxpayers – The CADE did not always update the decedent
           taxpayer account to indicate that the taxpayer is deceased. Specifically, the taxpayer
           account name line was not always updated indicating the taxpayer was deceased, and the
           date of death was not always added to the account. Indicating the taxpayer is deceased
           on the account name line enables the mail filing requirement associated with the taxpayer
           to be updated to avoid sending forms to a deceased taxpayer. Providing the date of death
           on the account initiates a process to prepare a refund for either a surviving spouse or
           designated representative as applicable.
           When the CADE project team recognized this issue, it implemented corrective actions to
           resolve the problem. In addition, the CADE project team reviewed the accounts that
           were not accurately updated and determined that accounts with an inaccurate mail filing
           requirement were not affected by the absence of the decedent designation on the taxpayer
           name line of the tax returns. However, for accounts that did not include the date of death,
           some refund checks were inappropriately issued to deceased taxpayers, but none were
           returned as undeliverable.
       •   Treasury Offset Program – This program is administered by the Treasury Financial
           Management Service and will apply a taxpayer’s overpayment to outstanding non-tax
           child support or Federal agency debt prior to issuing a refund. Our reviews found that
           CADE accounts with multiple refunds issued by the IRS on different dates (tax refunds
           and Economic Stimulus Act of 20085 payments) affected by the Treasury Offset Program
           were correctly paid to the Treasury Financial Management Service. However, the CADE
           programming did not allow IRS systems to display the offset of the other Federal debts
           for taxpayers with multiple refunds. This condition was presented to the CADE project
           team and the team implemented corrective actions to resolve the problem.
       •   Processing the Filing of Prior Year Tax Returns – Planned capabilities for CADE
           Release 4.1 included processing prior year returns (filed for Tax Year 2003 and later) for
           taxpayers meeting certain filing conditions. Requirements for processing the eligible
           prior year tax returns did not consider processing routines to capture account information
           on the Taxpayer Information File for potential account adjustment activity by the
           Integrated Data Retrieval System. Currently, these processing routines prevent prior year
           returns from being maintained on the CADE system and require transfer of the taxpayer
           account to the Individual Master File for processing.
           The IRS determined that modifications to the CADE program to allow processing of the
           prior year tax returns would involve very complex and extensive programming changes.
           Because of the additional programming necessary and the anticipated small volume of
           prior year returns, the IRS decided to defer implementation of this capability until the


5
    Pub. L. 110-185, 122 Stat. 613.
                                                                                               Page 4
                                 Customer Account Data Engine Release 4
                      Includes Most Planned Capabilities and Security Requirements
                            for Processing Individual Tax Account Information



           development of CADE Release 5. Subsequently, the IRS informed us that it is
           reconsidering the plans and requirements for future CADE releases, leaving the
           implementation of the capability to fully process and retain prior year returns with the
           CADE uncertain. Our review determined that this capability involved a relatively small
           number of taxpayer accounts. Through April 17, 2009, 24,561 taxpayers filed
           25,058 prior year tax returns that could not be maintained on the CADE and were
           transferred to the Individual Master File for processing.
      •    Missing Correspondence Received Date – Our review identified tax returns processed
           by CADE Release 4 that originally had incomplete information and required the IRS to
           correspond with the taxpayer. Initially, the IRS did not process these tax returns and
           requested that the taxpayers respond with complete information. When taxpayers
           responded to the IRS, the record of the correspondence received date was not shown on
           the CADE. However, the Modernized Database captured the correspondence received
           date, which showed the updated tax return filing date.
           Analysis of the updates showed that returns were filed in a timely manner and any
           interest payments on tax refunds due to processing delays were properly processed.
           However, because the CADE account information did not capture and display the
           taxpayers’ correspondence received date, there is a potential that subsequent activity by
           the IRS may result in inappropriate account actions or adjustments.
           Management Action: Subsequent to our review of the returns with incomplete
           information, the IRS informed us that it took actions to resolve the issue of the missing
           correspondence received date by performing program adjustments that were deployed
           with CADE Release 4.2 on January 19, 2009. The IRS is also in the process of correcting
           accounts previously processed with Release 4.1.

Other programming priorities prevented the implementation of some planned
capabilities for CADE Release 4.2
The major capabilities added to CADE Release 4.2 included processing applications for
extensions to file tax returns, updating account with taxpayer name changes, and generating
notices to taxpayers of the potential to claim the Earned Income Credit. Also, capabilities
include accepting full payment of the balance due on tax returns, some estimated tax payments,
and payments received with extensions of time to file tax returns. The IRS also enhanced the
CADE balance and control processing for tax payments and the ability to determine the presence
of penalty and debit interest situations. Returns with penalty and debit interest should not be
recorded in the CADE. Instead, the transaction and the taxpayer’s account should be restored to
the Individual Master File. Further, this release processes the Economic Stimulus
Payment/Recovery Rebate Credit.6 Based on our sampled transactions and the documentation

6
    Pub. L. No. 110-185, 122 Stat. 613.
                                                                                               Page 5
                           Customer Account Data Engine Release 4
                Includes Most Planned Capabilities and Security Requirements
                      for Processing Individual Tax Account Information



reviewed, we determined that the release properly implemented these capabilities for tax return
processing. However, we identified the following Release 4.2 development and processing
problems.
   •   Revenue Receipt Transactions – The planned CADE capabilities for Release 4.2
       included acceptance of revenue receipt transactions resulting from remittances received
       in full payment with original tax returns, estimated tax payments and declarations, and
       payments received with requests for extension of time to file. Our review found that tax
       returns filed with electronic remittances processed through the Electronic Federal Tax
       Payment System could not be processed by the CADE.
       Electronic remittances processed through the Electronic Federal Tax Payment System
       require a routine to capture account information on the Taxpayer Information File for
       potential account adjustment activity by the Integrated Data Retrieval System. Similar to
       the problems discussed previously in processing filings of prior year returns, these
       processing routines prevent the accounts from being eligible for CADE processing and
       require processing by the Individual Master File. Through May 15, 2009, almost
       5.4 million taxpayers filed tax returns with a remittance through the CADE, which
       included more than 703,000 (13 percent) electronic remittances processed through the
       Electronic Federal Tax Payment System. Virtually all of the returns with electronic
       remittances originally accepted for CADE processing required transfer to the Individual
       Master File to be able to accept the tax account information and process the payment.
       The IRS determined that modifications to the CADE program to allow processing of
       electronic remittances would involve programming changes in coordination with the
       Electronic Federal Tax Payment System. As discussed previously, the IRS informed us
       that it is reconsidering the plans and requirements for future CADE releases. As a result,
       the implementation of the CADE capability to process remittances received with original
       tax returns using the Electronic Federal Tax Payment System is uncertain.
       Further, because of other programming priorities, the capability for the CADE to process
       certain estimated tax payments was also deferred. This capability has been deferred to
       CADE Release 5.2, scheduled for deployment in January 2010.
   •   Criminal Investigation Division Refund Hold – The Criminal Investigation Division
       Electronic Fraud Detection System processes tax returns in parallel with the CADE and
       the Individual Master File. When this System detects a suspicious tax return, the refund
       issuance is suspended until the circumstances about its propriety are resolved. Because
       of other programming priorities, the capability for the CADE to perform the Criminal
       Investigation Division refund hold has been deferred to CADE Release 5.2, scheduled for
       deployment in January 2010.



                                                                                           Page 6
                                  Customer Account Data Engine Release 4
                       Includes Most Planned Capabilities and Security Requirements
                             for Processing Individual Tax Account Information



       •   Credit Election Processing – Because of other programming priorities, the capability for
           the CADE to process tax credit elections on current year tax returns has been deferred to
           CADE Release 5.2, scheduled for deployment in January 2010.

Further Work Is Necessary to Alleviate Known Customer Account
Data Engine System Security Vulnerabilities
Our report entitled The Internal Revenue Service Deployed Two of Its Most Important
Modernized Systems With Known Security Vulnerabilities identified 16 security vulnerabilities in
the CADE system environment. The IRS has taken steps to address all 16 of the reported
vulnerabilities and has fully resolved 10 of them. The remaining six security vulnerabilities
cannot be resolved until actions are completed to ensure controls are effectively in place or have
been approved as deviations to IRS policy. Appendix V presents the previously reported
security vulnerabilities with the CADE system and the status of their resolution.

Oversight to track the status of vulnerabilities until resolution needs
improvement in the “Plan of Action and Milestones” listing
IRS policy specifies that all computer system weaknesses from any valid source should be
entered in the Plan of Action and Milestones listing. IRS system owners must track the status of
the resolution of all weaknesses and verify that each weakness is corrected before reporting the
item as resolved on the listing.
The IRS is required to quarterly submit to the Department of the Treasury and the Office of
Management and Budget a Plan of Action and Milestones listing system weaknesses. The Office
of Management and Budget uses the information to assess the agency’s progress in alleviating
system weaknesses, monitor the Federal Government’s ability to implement the Federal
Information Security Management Act of 2002,7 and make budgetary decisions. Inaccurate or
incomplete Plan of Action and Milestones listing information affects the Office of Management
and Budget’s ability to obtain an accurate status of IRS security weakness remediation.
Of the 16 previously reported vulnerabilities, 13 were directly related to National Institute of
Standards and Technology Special Publication 800-53 system controls that are required to be
tracked in the Plan of Action and Milestones listings. The remaining three vulnerabilities were
privacy weaknesses, which the IRS tracks in the Item Tracking Reporting and Control System.
We found that the IRS prematurely reported resolution of 6 of the 13 vulnerabilities in the
Plan of Action and Milestones listings before effective corrective actions were taken. Three of
these six vulnerabilities were not fully resolved as of the date of this report.




7
    Pub. L. No. 107-347, Title III, 116 Stat. 2946 (2002).
                                                                                             Page 7
                              Customer Account Data Engine Release 4
                   Includes Most Planned Capabilities and Security Requirements
                         for Processing Individual Tax Account Information



In addition, we found three additional weaknesses related to the disaster recovery process that
the IRS is not tracking in the Plan of Action and Milestones listings.
    •   Training of disaster recovery personnel was not adequate. During September 2008
        disaster recovery testing, the IRS determined that cross-training and knowledge transfer
        was needed to ensure the Memphis Computing Center staff could reinstall the CADE in
        the event the Martinsburg Computing Center staff and/or the PRIME contractor were not
        available.
    •   The CADE system’s disaster recovery plan did not include sufficient detail, listed some
        steps out of order, and did not contain all steps needed to restore the CADE system.
        During the September 2008 disaster recovery testing, the IRS determined that the plan
        still needed improvement to document all required steps in the proper sequence to allow
        appropriate execution. This issue was previously reported during the 2007 disaster
        recovery testing.
    •   A complete recovery of the data on the mainframe computer is not feasible until
        hardware capacity is increased. During the September 2008 disaster recovery testing, the
        IRS determined that additional capacity was needed to restore all applications residing on
        the mainframe computer. This issue was previously reported during the 2007 disaster
        recovery testing.
The IRS Cybersecurity organization does not monitor system owners’ compliance with IRS
policy to track all system vulnerabilities in the Plan of Action and Milestones listings. Further, it
does not monitor system owners’ compliance with IRS policy to verify that weaknesses are
corrected before reporting them as resolved on the Plan of Action and Milestones listing. The
Government Accountability Office also reported8 in January 2009 that the IRS lacked an
effective corrective action verification process to ensure it had taken the necessary actions to
correct security weaknesses found in information systems.
Inadequate monitoring of vulnerabilities in the Plan of Action and Milestones listing and
prematurely reporting vulnerabilities as resolved may decrease managerial attention to
unresolved problems, prevent allocation of resources required to fix problems, and lead to delays
in correcting vulnerabilities. Inaccurate Plan of Action and Milestones listing information
prevents the Office of Management and Budget from obtaining an accurate status of the IRS’
security weaknesses.




8
 Information Security: Continued Efforts Needed to Address Significant Weaknesses at IRS (GAO-09-136, dated
January 2009).
                                                                                                      Page 8
                           Customer Account Data Engine Release 4
                Includes Most Planned Capabilities and Security Requirements
                      for Processing Individual Tax Account Information



Recommendation
Recommendation 1: The Chief Technology Officer should direct the Cybersecurity
organization to take actions that ensure the CADE and mainframe computer system owners
a) appropriately enter and track system vulnerabilities on control systems, including the Plan of
Action and Milestones listing and the Item Tracking Reporting and Control System, and b) verify
corrective actions are fully implemented before they are considered and reported as resolved.
       Management’s Response: The IRS agreed with our recommendation. The
       Cybersecurity organization will continue to improve the process to ensure that system
       owners comply with IRS policy to enter and track all system vulnerabilities in IRS
       control systems.




                                                                                          Page 9
                                 Customer Account Data Engine Release 4
                      Includes Most Planned Capabilities and Security Requirements
                            for Processing Individual Tax Account Information



                                                                                      Appendix I

           Detailed Objectives, Scope, and Methodology

The overall objectives of this review were to assess the accuracy and completeness of the CADE1
Release 4 capabilities to enhance the processing of tax return information, determine whether
this release provides the intended benefits to the IRS and taxpayers, and determine whether the
IRS has taken effective actions to correct security vulnerabilities on prior CADE system releases.
To accomplish our objectives, we:
I.         Determined whether new requirements included in Release 4.1 accurately posted tax
           return information to the CADE. Specifically, we determined whether the CADE:
           A. Accepts tax returns with a surviving spouse filing status with dependent child.
           B. Accurately processes the tax returns of decedent taxpayers.
           C. Accurately generates the Additional Child Tax Credit Notice to eligible taxpayers
              who did not claim the full amount of Child Tax Credit.
           D. Accurately generates the Electronic Fund Transfer Notice notifying taxpayers that
              their electronic refund request cannot be honored.
           E. Processes the filing of prior year tax returns.
           F. Accepts the Treasury Offset Program transactions from the Accept and Route
              Transactions application.
           G. Processes changes to addresses.
II.        Determined whether new requirements included in Release 4.2 accurately posted tax
           return information to the CADE. Specifically, we determined whether the CADE:
           A. Accepts revenue receipt transactions and generates applicable math error notices.
           B. Revenue Receipt Balance and Control processing has been updated to accommodate
              Revenue Receipt transactions deployed with Release 4.2.
           C. Accurately processes Applications for Automatic Extension of Time To File U.S.
              Individual Income Tax Return (Form 4868).
           D. Accepts last name changes from taxpayers through tax return filings, the receipt of
              Estimated Tax for Individuals (Form 1040-ES), or the National Account Profile file.


1
    See Appendix VI for a glossary of terms.
                                                                                                Page 10
                             Customer Account Data Engine Release 4
                  Includes Most Planned Capabilities and Security Requirements
                        for Processing Individual Tax Account Information



        E. Has returned control of taxpayer accounts to the current processing environment for
           those accounts identified to receive a penalty or debit interest.
        F. Accurately processes the Economic Stimulus Payment/Recovery Rebate Credit.2
        G. Accurately generates the non-math error notice to taxpayers with qualifying children
           of potential Earned Income Credit.
III.    Determined whether the IRS has taken effective actions to correct security vulnerabilities
        on prior CADE system releases. Specifically, we:
        A. Assessed the current status of the 16 security vulnerabilities identified during the
           audit on CADE Releases 2.2 and 3.1 security controls.3
        B. Assessed the adequacy of corrective actions implemented on security vulnerabilities
           identified during the audit on CADE Releases 2.2 and 3.1 security controls.

Validity and reliability of data from computer-based systems
We obtained individual tax return data processed by the CADE and stored on the Modernized
Database. We compared the data to information processed and stored in the Individual Master
File. We used the tax return identification number as the control to validate the accuracy of the
matching of the tax return information stored on the Modernized Database and the Individual
Master File. The data were sufficiently reliable to perform our audit analyses.

Analysis of CADE tax return samples
Tables 1 and 2 present the tax return information populations and samples we used to analyze
taxpayer account information processed by CADE Releases 4.1 and 4.2. Our reviews involved
analyses of Calendar Years 2008 and 2009 U.S. Individual Income Tax Returns (Form 1040 and
Form 1040A) and Income Tax Returns for Single and Joint Filers With No Dependents
(Form 1040EZ) filed and recorded to the CADE from July 2008 through April 2009. We used
random sampling to ensure that each account had an equal chance of being selected, which
enabled us to obtain sufficient evidence to support our results.




2
 Pub. L. No. 110-185, 122 Stat. 613.
3
 The Internal Revenue Service Deployed Two of Its Most Important Modernized Systems With Known Security
Vulnerabilities (Reference Number 2008-20-163, dated September 24, 2008).
                                                                                                   Page 11
                           Customer Account Data Engine Release 4
                Includes Most Planned Capabilities and Security Requirements
                      for Processing Individual Tax Account Information



                    Table 1: Sample Selection of CADE Release 4.1
                            Forms 1040, 1040A, and 1040EZ
                       Filed From July Through December 2008

          CADE Release 4.1 Capability Tested            Population             Sample Size
         Surviving Spouse Tax Returns                        5                       5

         Decedent Tax Returns                             2,708                     70
         Additional Child Tax Credit Notice                  8                       8
         Electronic Fund Transfer Refund                  1,068                     64
         Notice
         Prior Year Tax Returns                           2,867                     40
         Treasury Offset Program                          1,773                     66
         Changes to Address Processing                  1,479,905                   80
       Source: Treasury Inspector General for Tax Administration extract of tax return account data
       from the CADE and the Individual Master File for the period July through December 2008.

Detailed Sample Parameters:
   •   Surviving Spouse Tax Returns – We selected five individual income tax returns filed as
       a surviving spouse [widow(er) with dependent child] filing status that had posted to the
       CADE from July through October 2008.
   •   Decedent Tax Returns – We selected 70 individual income tax returns filed as a
       decedent return (1 or both taxpayers deceased) that had posted to the CADE from July
       through November 2008.
   •   Additional Child Tax Credit Notice – We selected eight individual income tax returns
       that had posted to the CADE from August through October 2008 and were issued an
       Additional Child Tax Credit Notice informing the taxpayer of potential credit to be
       claimed.
   •   Electronic Fund Transfer Refund Notice – We selected 64 individual income tax
       returns that had posted to the CADE from August through October 2008 and were issued
       an Electronic Fund Transfer Refund Notice informing the taxpayer that a paper refund
       check will be issued instead of an electronic refund.
   •   Prior Year Tax Returns – We selected 40 individual income tax returns filed as prior
       year returns (Calendar Years 2005 and 2006) that had posted to the CADE from
       July through October 2008.




                                                                                                      Page 12
                           Customer Account Data Engine Release 4
                Includes Most Planned Capabilities and Security Requirements
                      for Processing Individual Tax Account Information



   •   Treasury Offset Program – We selected 66 individual income tax returns that had
       posted to the CADE from July through October 2008 and had been identified by the IRS
       to have their refund reduced due to an outstanding child support or Federal agency debt.
   •   Changes to Address Processing – We selected 80 individual taxpayer accounts with
       address changes processed by the CADE from July through December 2008.
                    Table 2: Sample Selection of CADE Release 4.2
                            Forms 1040, 1040A, and 1040EZ
                        Filed From January Through April 2009

          CADE Release 4.2 Capability Tested            Population             Sample Size
         Revenue Receipt Transactions                    159,961                    220
         Revenue Receipt Balance and Control             192,632                  192,632

         Extension of Time to File                        8,942                     60
         Last Name Changes                                93,036                    150
         Generation of Earned Income Credit               4,791                     70
         Notice
         Economic Stimulus Payment/                       15,574                    64
         Recovery Rebate Credit
       Source: Treasury Inspector General for Tax Administration extract of tax return account data
       from the CADE and the Individual Master File for the period January through April 2009.

Detailed Sample Parameters:
   •   Revenue Receipt Transactions – We selected 220 individual income tax accounts with
       remittances received with original returns, estimated tax payments and declarations, and
       requests for extension of time to file that had posted to the CADE from January through
       March 2009.
   •   Revenue Receipt Balance and Control – We selected 192,632 revenue receipt
       transactions that had posted to the CADE from January through March 2009 and
       compared the total dollar amounts to the CADE balance and control reports.
   •   Extension of Time to File – We selected 60 individual income tax accounts with
       extensions of time to file that had posted to the CADE from January through March 2009.
   •   Last Name Changes – We selected 150 individual taxpayer accounts with last name
       changes processed by the CADE from January through March 2009.




                                                                                                      Page 13
                        Customer Account Data Engine Release 4
             Includes Most Planned Capabilities and Security Requirements
                   for Processing Individual Tax Account Information



•   Generation of Earned Income Credit Notice – We selected 70 individual income tax
    returns with Earned Income Tax Credit notices generated by the CADE from February
    through April 2009.
•   Economic Stimulus Payment/Recovery Rebate Credit – We selected 64 individual
    income tax returns with a Recovery Rebate Credit being claimed that had posted to the
    CADE in January and February 2009.




                                                                                    Page 14
                           Customer Account Data Engine Release 4
                Includes Most Planned Capabilities and Security Requirements
                      for Processing Individual Tax Account Information



                                                                               Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Acting Assistant Inspector General for Audit (Security and Information
Technology Services)
Scott A. Macfarlane, Director
Edward A. Neuwirth, Audit Manager
Michael A. Garcia, Senior Auditor
Jody Kitazono, Senior Auditor
Beverly Tamanaha, Senior Auditor
Suzanne Westcott, Auditor
Arlene Feskanich, Senior Information Technology Specialist
Richard Hillelson, Information Technology Specialist
Martha Stewart, Information Technology Specialist




                                                                                       Page 15
                          Customer Account Data Engine Release 4
               Includes Most Planned Capabilities and Security Requirements
                     for Processing Individual Tax Account Information



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief Information Officer OS:CTO
Deputy Commissioner, Wage and Investment Division SE:W
Associate Chief Information Officer, Applications Development OS:CTO:AD
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Test Assurance and Documentation OS:CTO:AD:TAD
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief Technology Officer OS:CTO
       Commissioner, Wage and Investment Division SE:W
       Associate Chief Information Officer, Applications Development OS:CTO:AD
       Senior Operations Advisor, Wage and Investment Division SE:W:S
       Director, Program Oversight OS:CTO:SM:PO
       Chief, GAO/TIGTA/Legislative Implementation Branch SE:S:CLD:PSP:GTL




                                                                                 Page 16
                                 Customer Account Data Engine Release 4
                      Includes Most Planned Capabilities and Security Requirements
                            for Processing Individual Tax Account Information



                                                                                               Appendix IV

    Customer Account Data Engine Release Capabilities

The IRS is implementing the CADE in a series of releases1 over several years. Table 1 describes
the capabilities implemented in Releases 1 and 2.
                       Table 1: CADE Release 1 and Release 2 Capabilities

         CADE               Start of
         Release           Processing                     Capabilities Added for Each Release
      Release 1.1      July 2004               Form 1040EZ for single filers and joint filers with no
                                               dependents.
                                               Single filing status only.
      Release 1.2      January 2005            Tax law changes for filing season.
      Release 1.3.2    January 2006            Forms 1040 and 1040A with no dependents and no
                                               attachments or schedules.
                                               Address changes on returns.
      Release 2.1      September 2006          Returns with Head of Household filing status.
                                               Returns with Schedules A, B, and R.
                                               Returns with limited name changes.
                                               United States Postal Service address change updates.
      Release 2.2      March 2007              Form 1040EZ-T.
                                               Returns with Married Filing Jointly and Married Filing
                                               Separately filing statuses.
                                               Credit for Federal Telephone Excise Tax paid.
    Source: The IRS Applications Development organization.
    Form 1040 – U.S. Individual Income Tax Return
    Form 1040A – U.S. Individual Income Tax Return
    Form 1040EZ – Income Tax Return for Single and Joint Filers With No Dependents
    Form 1040EZ-T – Request for Refund of Federal Telephone Excise Tax
    Schedule A (Form 1040) – Itemized Deductions
    Schedule B (Form 1040) – Interest and Ordinary Dividends
    Schedule R (Form 1040) – Credit for the Elderly or the Disabled




1
    See Appendix VI for a glossary of terms.
                                                                                                        Page 17
                              Customer Account Data Engine Release 4
                   Includes Most Planned Capabilities and Security Requirements
                         for Processing Individual Tax Account Information



 The IRS initially planned to implement 17 requirements for Release 3 and divided the
 requirements delivery into 2 subreleases, Releases 3.1 and 3.2. Table 2 presents the capabilities
 for Release 3.1, which was completed in October 2007.
                             Table 2: CADE Release 3.1 Capabilities

        Capability                                Description                            Date Deployed
 Disaster Area Designation Adds the processing necessary to accept Disaster
                           Area transactions. Maintains all information
                                                                                         August 9, 2007
                           necessary to determine disaster start and end dates
                           and to change business rules as necessary based
                           on requirements gathering.
 Add Indicator to Legacy      Adds an indicator to the balance section of the            August 9, 2007
 Account Formatted File       entity on the Legacy Account Formatted File
 Online Entity to Show        Online showing that an account is “in transit”
 Account Is “In Transit”      when it has been sent to the Individual Master File
                              from the CADE.
 Validate Module Balance      Validates the CADE account balance and updates             August 9, 2007
 When Updating Tax            the Legacy Account Formatted File Online.
 Modules on Legacy
 Account Formatted File
 Online
 Enterprise Application       Develops or provides address change services to           October 1, 2007
 Integration Broker           support online requests originated from the IRS
                              Enterprise Application Integration Broker.
Source: The IRS Wage and Investment Division and the Modernization and Information Technology Services
Applications Development organization.




                                                                                                    Page 18
                                  Customer Account Data Engine Release 4
                       Includes Most Planned Capabilities and Security Requirements
                             for Processing Individual Tax Account Information



 The IRS completed Release 3.2 in February 2008. Table 3 presents the capabilities for
 Release 3.2.
                                 Table 3: CADE Release 3.2 Capabilities

            Capability                              Description                        Date Deployed
 Issuance of                       Sends notifications to taxpayers when              January 14, 2008
 Math Error Notices                discrepancies are found during tax return
                                   processing.
 Child and Dependent Care          Processes information from taxpayers who          February 11, 2008
 Expenses (Form 2441)              have filed Form 1040/Form 2441 or
 Credit                            Form 1040A/Child and Dependent Care
                                   Expenses for Form 1040A Filers
                                   (Schedule 2) to take the credit for child and
                                   dependent care expenses.
 Earned Income Credit              Processes Form 1040/1040A with                    February 11, 2008
 (Schedule EIC)                    Schedule EIC. Uses the Earned Income Tax
                                   Credit information to identify those eligible
                                   tax returns that have Earned Income Tax
                                   Credit-qualifying dependents.
 Dependent Database                Expands capabilities to allow the CADE to         February 11, 2008
 Interface                         accept all dependents and to process the
                                   Earned Income Tax Credit.
 Split Refunds                     Provides taxpayers with the ability to deposit    February 25, 2008
                                   their electronic refunds from tax returns into
                                   multiple checking, savings, and/or retirement
                                   accounts.
Source: The IRS Wage and Investment Division and the Modernization and Information Technology Services
Applications Development organization.

 On February 13, 2008, the President signed the Economic Stimulus Act of 2008,2 which
 provided taxpayers with payments of up to $600 for individuals and $1,200 for couples. This
 relief was available to everyone with adjusted gross income less than $75,000 for single
 individuals and $150,000 for married couples filing jointly. The payments were phased out for
 taxpayers above those income thresholds. Everyone eligible for this relief was also eligible to
 receive an additional $300 per child.
 The IRS added the ability to issue economic stimulus payments through the CADE on
 April 21, 2008. The first payments through the CADE were issued on April 28, 2008.


 2
     Pub. L. No. 110-185, 122 Stat. 613.
                                                                                                    Page 19
                               Customer Account Data Engine Release 4
                    Includes Most Planned Capabilities and Security Requirements
                          for Processing Individual Tax Account Information



 The IRS completed Release 4.1 in July 2008. Table 4 presents the capabilities for Release 4.1.
                             Table 4: CADE Release 4.1 Capabilities

         Capability                             Description                            Date Deployed
 Surviving Spouse              Processes tax returns with a surviving spouse            July 28, 2008
                               filing status [widow(er) with dependent
                               child]. A qualifying taxpayer may use this
                               filing status only on the tax return for 2 years
                               following the tax year of the death of the
                               spouse, provided there are one or more
                               dependent children. This filing status
                               benefits the surviving taxpayer, in that they
                               will be able to use the joint tax table after the
                               death of a spouse.
 Decedents                     Processes the tax returns of decedent                    July 28, 2008
                               taxpayers. The release updates the account
                               name line indicating that the taxpayer is
                               deceased and updates the mail filing
                               requirement associated with the taxpayer to
                               avoid sending forms to deceased taxpayers.
                               The release records the taxpayer’s date of
                               death and prepares a refund for either a
                               surviving spouse or designated representative
                               as applicable.
 Changes to Address            Updates account addresses and ZIP codes.                 July 28, 2008
 Processing
 Additional Child Tax          Generates a notice to the taxpayer in the                July 28, 2008
 Credit Notice                 event the taxpayer was not able to claim the
                               full amount of Child Tax Credit and is
                               eligible for the Additional Child Tax Credit.
 Electronic Fund Transfer      Generates a notice to alert taxpayers                    July 28, 2008
 Notice                        whenever an electronic refund is changed to
                               a paper check.
 Treasury Offset Program       Applies a taxpayer’s overpayment to                      July 28, 2008
                               outstanding non-tax child support or Federal
                               agency debt prior to crediting an
                               overpayment to a future tax or making a
                               refund.
Source: The IRS Wage and Investment Division and the Modernization and Information Technology Services
Applications Development organization.


                                                                                                    Page 20
                              Customer Account Data Engine Release 4
                   Includes Most Planned Capabilities and Security Requirements
                         for Processing Individual Tax Account Information



 The IRS completed Release 4.2 in January 2009. Table 5 presents the capabilities for
 Release 4.2.
                             Table 5: CADE Release 4.2 Capabilities

         Capability                             Description                            Date Deployed
 Revenue Receipt               Accepts Revenue Receipt transactions                   January 19, 2009
 Transactions                  resulting from remittances received with
                               original returns, estimated tax payments and
                               declarations, and payments received with
                               requests for extension of time to file.
 Revenue Receipt Balance       The balancing and reconciliation of data               January 19, 2009
 and Control                   within the CADE include three major
                               components: initialization (the transfer of
                               taxpayer account data from existing IRS
                               systems to the modernized CADE system);
                               daily processing (the editing, processing, and
                               record keeping of all transactions); and
                               weekly processing (external and internal
                               balancing of all processing and transactions
                               for the week).
 Extension to File Tax         Processes Application for Automatic                    January 19, 2009
 Returns                       Extension of Time To File U.S. Individual
                               Income Tax Return (Form 4868). If
                               taxpayers cannot meet the tax return filing
                               deadline they can request an extension to the
                               due date of their tax return using Form 4868.
 Last Name Changes             Establishes a new process to update                    January 19, 2009
                               taxpayers’ names for CADE accounts.
 Penalty and Interest          Identifies taxpayers subject to a penalty or           January 19, 2009
 Potential                     debit interest resulting from the timeliness of
                               payments made with or prior to filing their
                               tax returns. These returns should not be
                               recorded in the CADE. Instead, the
                               transaction and the taxpayer’s account should
                               be restored to the Individual Master File.
 Potential to Claim the        Generates a notice to inform taxpayers with            January 19, 2009
 Earned Income Credit          qualifying child(ren) of the potential to claim
                               the Earned Income Credit.
Source: The IRS Wage and Investment Division and the Modernization and Information Technology Services
Applications Development organization.


                                                                                                    Page 21
                                 Customer Account Data Engine Release 4
                      Includes Most Planned Capabilities and Security Requirements
                            for Processing Individual Tax Account Information



                                                                                      Appendix V

        Customer Account Data Engine System Security
            Vulnerabilities and Status of Resolution

         Security Vulnerability                Vulnerability Status
1        The CADE1 Disaster Recovery           Resolved. While testing occurred in 2007 and 2008, the
         Plan and the Information              testing identified deficiencies that the mainframe
         Technology Contingency Plan           computer system owner should be tracking in the Plan
         had not been sufficiently tested.     of Action and Milestones listing.
2        Backup tapes from the offsite         Resolved. Problems with backup tapes during 2007
         storage facility were not tested      testing were resolved during 2008 testing.
         at the original site or alternative
         site.
3        CADE personally identifiable          Resolved. IRS implemented encryption for backup data
         information backed up on tapes,       and data shared externally in April 2008.
         disks, and compact discs, and
         data shared with external
         agencies, were not encrypted.
4        The CADE did not have the             Resolved. Inconsistencies in design documents where
         ability to identify and process       this issue was identified were resolved in May 2008.
         all error codes.
5        Interconnection Security              Resolved. Deficiencies in the agreements were resolved
         Agreements were not in place          in March 2008.
         or did not contain complete and
         current interface information.
6        Malicious code protection was         Resolved. However, the IRS mainframe computer
         not implemented.                      system security plan needs improvement to adequately
                                               describe how the system implements malicious code
                                               protection.




1
    See Appendix VI for a glossary of terms.
                                                                                              Page 22
                           Customer Account Data Engine Release 4
                Includes Most Planned Capabilities and Security Requirements
                      for Processing Individual Tax Account Information



     Security Vulnerability              Vulnerability Status
7    Unauthorized access to              Resolved. However, the CADE privacy impact
     personally identifiable             assessment needs improvement to correct inaccurate and
     information could occur in          incomplete information. The CADE project team hired
     mainframe computer memory,          a privacy engineer to address ongoing privacy risks.
     disk space, and tapes because
     the data were not removed
     before the media were reused.
8    Security events and                 Resolved. Reported as resolved prematurely in the IRS
     unauthorized access to taxpayer     mainframe computer Plan of Action and Milestones
     accounts by privileged CADE         listing on October 15, 2007. A new audit logging tool
     users were not captured.            was installed on March 9, 2009.
9    Contractors could make              Resolved. Reported as resolved prematurely in the
     changes to system configuration     CADE Plan of Action and Milestones listing on
     settings without notice,            June 7, 2007. Improper privileges for two contractors
     approval, or security checks.       were not revoked until March 2008.
10   The CADE development staff          Resolved. Reported as resolved prematurely in the
     did not test security features      CADE Plan of Action and Milestones listing on
     before releasing the application    January 10, 2008. The CADE developer performed
     code.                               security testing for CADE Release 4.2 in
                                         September 2008.
11   Vulnerability scans of the          Unresolved. Reported as resolved prematurely in the
     mainframe computer on which         IRS mainframe computer Plan of Action and Milestones
     the CADE resides identified         listing on October 15, 2007. While the high-risk failure
     one high-risk failure and several   associated with the Mainframe Policy Checker was
     configurations that were not        resolved in January 2009, a process is not in place for
     sufficient for protecting           ensuring vulnerabilities reported by all required
     taxpayer data. These                recurring scans are reviewed, mitigated, or monitored in
     vulnerabilities were not            the Plan of Action and Milestones listings.
     corrected.
12   The CADE did not employ an          Unresolved. Reported as resolved prematurely in the
     application-specific                CADE Plan of Action and Milestones listing on
     vulnerability scanning tool.        March 20, 2008. The first application-specific scan was
                                         run in February 2009; however, a process is not in place
                                         for ensuring vulnerabilities reported by all recurring
                                         required scans are reviewed, mitigated, or monitored in
                                         Plan of Action and Milestones listings.

                                                                                         Page 23
                               Customer Account Data Engine Release 4
                    Includes Most Planned Capabilities and Security Requirements
                          for Processing Individual Tax Account Information



       Security Vulnerability                 Vulnerability Status
 13    The system did not                     Unresolved. Reported as resolved prematurely in the
       automatically terminate a              IRS mainframe computer Plan of Action and Milestones
       session after 15 minutes of            listing on October 15, 2007. When the system owner
       inactivity.                            cannot comply with IRS policy, an approved deviation
                                              must be obtained from the Cybersecurity organization.
 14    Personally identifiable                Unresolved. This vulnerability is documented in the
       information data were                  IRS program-level Plan of Action and Milestones
       transmitted in clear text within       listing. However, the use of nonsecure transmission
       Computing Centers.                     protocols requires the mainframe computer system
                                              owner to obtain an approved deviation.
 15    The CADE did not have                  Unresolved. The CADE project team hired a privacy
       adequate controls to ensure that       engineer to address ongoing privacy risks. The IRS is
       minimal amounts of personally          tracking this privacy vulnerability in the Item Tracking
       identifiable information               Reporting and Control System.
       required for the particular
       CADE release were collected,
       stored, transferred, and
       processed.
 16    The CADE used live data in             Unresolved. The CADE project team hired a privacy
       more than 18 test environments         engineer to address ongoing privacy risks. The IRS is
       for application development            tracking this privacy vulnerability in the Item Tracking
       testing, but the system owner          Reporting and Control System.
       did not properly describe how
       the CADE will acquire, use, and
       dispose of the live data.
Source: CADE project personnel in the Enterprise Operations, Modernization and Information Technology Services
Security Engineering, and Office of Privacy organizations.




                                                                                                     Page 24
                           Customer Account Data Engine Release 4
                Includes Most Planned Capabilities and Security Requirements
                      for Processing Individual Tax Account Information



                                                                             Appendix VI

                              Glossary of Terms

            Term                                        Definition
Computing Centers              Support tax processing and information management through
                               a data processing and telecommunications infrastructure.
Customer Account Data          A major component of the IRS modernization program. The
Engine (CADE)                  CADE consists of current and planned databases and related
                               applications that work with the IRS Master File system.
Dependent Database             A screening mechanism to score and select incoming tax
                               returns based on questionable dependent claims.
Earned Income Credit           A tax credit for certain people who work and have income
                               under established limits.
Electronic Federal Tax         A tax payment system provided free by the U.S. Department
Payment System                 of the Treasury to pay Federal taxes electronically via the
                               Internet or telephone.
Enterprise Application         A commercial, off-the-shelf solution used to enable
Integration Broker             communication and data transformations among systems and
                               applications.
Filing Season                  The period from January through mid-April when most
                               individual income tax returns are filed.
Forms 1040, 1040A, and         The series of IRS forms that include individual income tax
1040EZ                         returns.
Individual Master File         The IRS database that maintains transactions or records of
                               individual tax accounts.
Integrated Data Retrieval      The IRS computer system capable of retrieving or updating
System                         stored information; it works in conjunction with a taxpayer’s
                               account records.
Item Tracking Reporting and    An information system used to track and report on issues,
Control System                 risks, and action items in the modernization effort.
Legacy Account Formatted       A database containing CADE-processed tax information.
File Online

                                                                                      Page 25
                            Customer Account Data Engine Release 4
                 Includes Most Planned Capabilities and Security Requirements
                       for Processing Individual Tax Account Information



Malicious Code                    Software designed to infiltrate or damage a computer system
                                  without the owner’s informed consent.
Master File                       The IRS database that stores various types of taxpayer
                                  account information. This database includes individual,
                                  business, and employee plans and exempt organizations data.
Modernized Database               A relational database that stores tax return information
                                  processed by the CADE.
National Institute of Standards   A non-regulatory Federal agency, within the Department of
and Technology                    Commerce, responsible for developing standards and
                                  guidelines, including minimum requirements, for providing
                                  adequate information security for all Federal Government
                                  agency operations and assets.
Notice                            A computer-generated message resulting from an analysis of
                                  the taxpayer’s account.
Plan of Action and Milestones     A requirement for managing the security weaknesses
                                  pertaining to a specific application or system. In addition to
                                  noting weaknesses, each Plan of Action and Milestones item
                                  details steps that need to be taken to correct or reduce any
                                  weaknesses, as well as resources required to accomplish task
                                  milestones and a correction timeline.
PRIME contractor                  The Computer Sciences Corporation is the PRIME contractor,
                                  which heads an alliance of leading technology companies
                                  brought together to assist with the IRS’ efforts to modernize
                                  its computer systems and related information technology.
Release                           A specific edition of software.
Requirement                       A formalization of a need and statement of a capability or
                                  condition that a system must have or meet to satisfy a
                                  contract, standard, or specification.
Submission Processing Site        IRS campuses that process paper and electronic submissions,
                                  correct errors, and forward data to the Computing Centers for
                                  analysis and posting to taxpayer accounts.
Taxpayer Information File         The Integrated Data Retrieval System’s major database.
ZIP Code                          The Zoning Improvement Plan instituted by the United States
                                  Postal Service to facilitate mail handling and delivery.



                                                                                             Page 26
               Customer Account Data Engine Release 4
    Includes Most Planned Capabilities and Security Requirements
          for Processing Individual Tax Account Information



                                                   Appendix VII

Management’s Response to the Draft Report




                                                           Page 27
           Customer Account Data Engine Release 4
Includes Most Planned Capabilities and Security Requirements
      for Processing Individual Tax Account Information




                                                       Page 28
